OFFICE OF INSPECTOR GENERAL

 DEPARTMENT OF VETERANS AFFAIRS




   SEMIANNUAL REPORT TO CONGRESS

   OCTOBER 1, 2006 - MARCH 31, 2007

                                Message from the Inspector General



This Semiannual Report to Congress focuses on the accomplishments of
the VA Ofﬁce of Inspector General (OIG) for the period of October 1, 2006,
through March 31, 2007. Issued in accordance with the Inspector General
Act of 1978, as amended, it presents results based on OIG strategic goals,
which cover the areas of health care delivery, beneﬁts processing, ﬁnancial
management, procurement practices, and information management.
During this reporting period, OIG issued 108 reports on VA programs and
operations. We recommended systemic improvements and efﬁciencies
in quality of care, accuracy of beneﬁts, budget processes, economy in
procurement, and information security. OIG audits, investigations, and
other reviews identiﬁed over $310 million in monetary beneﬁts, for a
return of $9 for every dollar expended on OIG oversight. Our criminal
investigators closed 668 investigations and made 305 arrests. OIG
investigative work also resulted in 380 administrative sanctions.
Our Ofﬁce of Healthcare Inspections continued a focus on quality
management in veterans health care, with a national review of patient safety in the operating
room. Healthcare Inspections has also issued reports on research activities in the Veterans Health
Administration, including the merit review process, research irregularities, and protection of human
subjects.
Our Ofﬁce of Audit oversaw an independent audit of the VA FY 2006 consolidated ﬁnancial statements.
While this report provided an unqualiﬁed (“clean”) audit opinion, it identiﬁed material weaknesses
in information technology security controls, lack of an integrated ﬁnancial management system, and
operational oversight. We will follow up and evaluate the implementation of corrective actions during
the audit of the VA FY 2007 consolidated ﬁnancial statements.
The Ofﬁce of Contract Review collaborated with the VA Ofﬁce of Acquisition and Materiel Management
on preaward and postaward reviews speciﬁcally designed to improve the VA procurement process.
Those efforts resulted in savings and dollar recoveries of nearly $75 million.
On February 15, 2007, I testiﬁed before the House Committee on Veterans’ Affairs Subcommittee
on Oversight and Investigations. I discussed our accomplishments and the challenges OIG faces in
providing oversight of VA to ensure it effectively serves America’s veterans. The testimony outlined
key challenges facing VA in need of additional oversight, including health care and beneﬁts for
returning Operation Enduring Freedom/Operation Iraqi Freedom veterans, research, protection of
VA data, information technology, and procurement.
OIG values the ongoing support we receive from the VA Secretary, Deputy Secretary, and senior
management. We look forward to further cooperation with VA and Congress to make VA as effective
as possible in caring for our Nation’s veterans.




GEORGE J. OPFER
Inspector General
                                           TABLE OF CONTENTS


Message from the Inspector General .................................................................................... 1


Statistical Highlights ............................................................................................................ 3


VA and OIG Mission, Organization, and Resources ............................................................... 4


Health Care Delivery............................................................................................................. 5


Beneﬁts Processing .............................................................................................................. 9


Financial Management........................................................................................................ 12


Procurement Practices ....................................................................................................... 14


Information Management................................................................................................... 18


Other Signiﬁcant OIG Activities .......................................................................................... 19


Appendix A–OIG Reports.................................................................................................... 20


Appendix B–Status of OIG Reports Unimplemented for Over 1 Year................................... 25 


Appendix C–Inspector General Act Reporting Requirements .............................................. 27

October 1, 2006–March 31, 2007                                                VA Ofﬁce of Inspector General


                                            Statistical Highlights
DOLLAR IMPACT ($$$ in Millions)
       Better Use of Funds ......................................................................... $25.8

       Fines, Penalties, Restitutions, and Civil Judgments ............................. $196.8

       Fugitive Felon Program .................................................................... $58.2

       Savings and Cost Avoidance ............................................................ $17.4

       Questioned Costs .............................................................................. $5.4

       OIG Dollar Recoveries ........................................................................ $6.6

       Contract Review Savings and Dollar Recoveries ................................... $74.8

RETURN ON INVESTMENT
       Dollar Impact ($310.2)/Cost of OIG Operations ($35.3) .......................... 9:1

       Dollar Impact ($74.8)/Cost of Contract Review Operations ($1.7) ............44:1

OTHER IMPACT
       Arrests1 ............................................................................................ 305

       Indictments ....................................................................................... 179

       Criminal Complaints ........................................................................... 126

       Convictions ....................................................................................... 212

       Pretrial Diversions ................................................................................21

       Fugitive Felon Apprehensions by Other Agencies Using VA OIG Data ...........81

       Administrative Sanctions ..................................................................... 380

ACTIVITIES
Reports Issued
     CAP Reviews........................................................................................23

     Joint Reviews........................................................................................ 1

     Audits.................................................................................................. 9

     Healthcare Inspections ..........................................................................24

     Administrative Investigations .................................................................. 9

     Contract Reviews .................................................................................42

Investigative Cases
     Opened............................................................................................. 622

     Closed .............................................................................................. 668

Healthcare Inspections Activities
      Clinical Consultations ............................................................................. 1

      Administrative Case Closures ................................................................12

Hotline Activities
       Cases Opened.................................................................................... 508

       Cases Closed ..................................................................................... 592


   1
       Includes the apprehension of 104 fugitive felons by OIG.




                                                                                                   Statistical Highlights   •   5
Semiannual Report to Congress                            October 1, 2006–March 31, 2007


                VA and OIG Mission, Organization,
                         and Resources

The Department of Veterans Affairs
The Department’s mission is to serve America’s veterans and their families with dignity
and compassion and to be their principal advocate in ensuring that they receive the care,
support, and recognition earned in service to the Nation. The VA motto comes from
Abraham Lincoln’s second inaugural address, given March 4, 1865, “to care for him who
shall have borne the battle and for his widow and his orphan.”
While most Americans recognize VA as a Government agency, few realize that it is the
second largest Federal employer. For ﬁscal year (FY) 2007, VA has a $76.9 billion budget
and almost 220,000 employees serving an estimated 24 million living veterans. To serve
the Nation’s veterans, VA maintains facilities in every state, the District of Columbia, the
Commonwealth of Puerto Rico, Guam, and the Philippines.
VA has three administrations that serve veterans:
    • Veterans Health Administration (VHA) provides health care.
    • Veterans Beneﬁts Administration (VBA) provides income and readjustment beneﬁts.
    • National Cemetery Administration provides interment and memorial beneﬁts.
For more information, please visit the VA Internet home page at www.va.gov.

VA Ofﬁce of Inspector General
The Ofﬁce of Inspector General (OIG) was administratively established on January 1, 1978,
to consolidate audits and investigations into a cohesive, independent organization. In
October 1978, Public Law 95-452, the Inspector General Act, was enacted, establishing a
statutory Inspector General (IG) in VA. It states that the IG is responsible for:
(1) conducting and supervising audits and investigations; (2) recommending policies
designed to promote economy and efﬁciency in the administration of, and to prevent
and detect criminal activity, waste, abuse, and mismanagement in VA programs and
operations; and (3) keeping the Secretary and Congress fully informed about problems and
deﬁciencies in VA programs and operations and the need for corrective action. The IG has
authority to inquire into all VA programs and activities as well as the related activities of
persons or parties performing under grants, contracts, or other agreements. Inherent in
every OIG effort are the principles of quality management (QM) and a desire to improve
the way VA operates by helping it become more customer-driven and results-oriented.
OIG, with 445 employees, is organized into three line elements: the Ofﬁces of
Investigations, Audit, and Healthcare Inspections, plus a contract review ofﬁce and
a support element. FY 2007 funding for OIG operations provides $70.6 million from
appropriations. The contract review ofﬁce receives $3.4 million through a reimbursable
agreement with VA for contract review services to perform preaward and postaward
contract reviews and other pricing reviews of Federal Supply Schedule contracts. In
addition to the Washington, DC, headquarters, OIG has ﬁeld ofﬁces located in 23 cities
throughout the country.
OIG keeps the Secretary and Congress fully and currently informed about issues affecting
VA programs and the opportunities for improvement. In doing so, OIG staff strives to be
leaders and innovators, and to perform their duties fairly, honestly, and with the highest
professional integrity. For more information, please visit the OIG Internet home page at
www.va.gov/oig.




6      •   VA and OIG Mission, Organization, and Resources
October 1, 2006–March 31, 2007                             VA Ofﬁce of Inspector General


                            Health Care Delivery
The health care that VHA provides veterans, including those recently returned from
Operation Enduring Freedom/Operation Iraqi Freedom (OEF/OIF), is consistently ranked
among the best in the Nation. OIG oversight helps VHA maintain a fully functional QM
program that ensures high-quality patient care and safety, and safeguards against the
occurrence of adverse events.

OFFICE OF HEALTHCARE INSPECTIONS
The OIG Ofﬁce of Healthcare Inspections (OHI) focuses on quality of care issues in VHA and
assesses VHA services. OHI published 23 cyclical Combined Assessment Program (CAP)
reviews to evaluate quality of care issues in VHA medical facilities, 19 hotline reports, and
5 national reviews.

Study Finds VHA Operating Rooms Inconsistent in Following Policy
OIG evaluated VHA medical facility efforts to ensure patient safety in the operating room
(OR) and found that most OR personnel followed the ﬁve steps outlined in VHA policy to
ensure correct surgery, but not consistently. Several environment of care issues needed
management attention. The way facilities collected, trended, and analyzed data made it
difﬁcult to analyze some OR issues. Facilities did not properly document surgical resident
supervision or disclose adverse events in the medical records. Mortality assessments
were not consistent with VHA policy, and morbidity and mortality peer reviews were not
completed for quality improvement as required. Local policies did not clarify which OR
providers require basic or advanced cardiac life support training. OIG also found that VHA
Supply, Processing, and Distribution was not consistently providing a continuous ﬂow of
processed sterile and non-sterile supplies, instruments, and equipment to the ORs. OIG
made recommendations for corrective action. (Review of Patient Safety in the Operating
Room in Veterans Health Administration Facilities)

Review Recommends Additional Quality Management Improvements
OIG conducted an evaluation to determine whether VHA facilities had comprehensive,
effective QM programs designed to monitor patient care activities and coordinate
improvement efforts, and whether VHA facility senior managers actively supported
QM efforts and appropriately responded to QM results. All 47 facilities reviewed had
established comprehensive QM programs and performed ongoing reviews and analyses
of mandatory areas. Healthcare inspectors noted improvements in many areas in this
report compared with the OIG FY 2003 report. However, facility senior managers needed
to continue to strengthen QM programs by improving compliance in peer review, adverse
event disclosure, utilization management, action item tracking, and mortality analyses.
OIG made recommendations for improvement to the Acting Under Secretary for Health.
(Healthcare Inspection, Quality Management in Veterans Health Administration Facilities
Fiscal Year 2006)

Inspectors Find VHA Needs to Tighten Conﬂict of Interest Rules
An OIG review found that members of a VA research merit review subcommittee reviewed
each others’ proposals despite possible conﬂicts of interest. This highlighted a systemic
problem that VHA policies do not deﬁne personal or professional relationships constituting
a conﬂict of interest in terms applicable to peer review, nor do they specify the extent and
nature of Ofﬁce of Research and Development responsibility to identify these conﬂicts.
In the speciﬁc case, when the designated agency ethics ofﬁcial exempted merit review
subcommittee members from the requirements of annual ﬁnancial disclosure statements in
1996, the exemption also included annual ethics statements otherwise required of special
Government employees. The Acting Under Secretary for Health provided acceptable
improvement plans. In the future, members will be required to review a conﬂict of
interest statement and certify both before and after the review period that they have
no conﬂict, but the designated agency ethics ofﬁcial determined that it was appropriate
to continue exempting merit review committee members from the annual ﬁnancial
disclosure requirement. (Healthcare Inspection, Alleged Conﬂict of Interest and Breach of
Conﬁdentiality in VHA’s Merit Review Process)



                                                               Health Care Delivery    •     7
Semiannual Report to Congress 	                           October 1, 2006–March 31, 2007


Inspectors Find Areas Needing Management Attention in Dallas
OIG evaluated selected operations focusing on patient care administration and QM, and
also conducted follow-up on aspects of our 2004 review. The health care system complied
with standards in the following ﬁve areas: environment of care, diabetes and atypical
antipsychotic medications, breast cancer management, patient satisfaction, and the all
employee survey. The following opportunities were identiﬁed to improve operations:
    • 	Construct a comprehensive effective QM program that includes all appropriate patient
       care and patient safety elements.
    • 	Appoint and train the utilization management physician advisor.
    • 	Improve veteran visitation, medical record and travel documentation, and conduct
       oversight in the contract nursing home program.
    • 	Improve administrative operations and oversight at the Greenville community-based
       outpatient clinic.
    • 	Require completed informed consents for cardiac catheterization procedures.
(Combined Assessment Program Review of the VA North Texas Health Care System, Dallas,
Texas)

Healthcare Review Calls for OR Improvements in Tampa
OIG conducted this review to determine the validity of multiple allegations made concerning
the management of the James A. Haley VA Medical Center (VAMC) OR and quality of care
issues. To improve operations, OIG made several recommendations, which included:
    • 	Assess all aspects of OR utilization including stafﬁng, specialty needs, OR scheduling,
       and patient ﬂow.
    • Perform surgeon-speciﬁc peer reviews.
    • 	Analyze the high mortality and morbidity identiﬁed in National Surgical Quality 

       Improvement Program data and take actions as needed.

    • 	Institute a comprehensive QM program within the surgery service and anesthesiology
       service.
    • 	Review the causes of surgical delays and make appropriate management changes to
       improve OR efﬁciency.
In addition, OIG recommended administrative and hygienic changes. The Veterans
Integrated Service Network (VISN) and VAMC directors provided acceptable improvement
plans. (Healthcare Inspection, Management of the Operating Room and Quality of Care
Issues, James A. Haley VA Medical Center, Tampa, Florida)

Inspectors Find Poor Communication in Discharge of Charleston Patient
OIG reviewed an allegation that a registered nurse discontinued an intravenous line (IV)
without authorization on an unstable patient. Healthcare inspectors substantiated that the
nurse discontinued the IV, but the patient showed no symptoms, met discharge criteria,
and had a valid discharge order. However, OIG determined the nurse did not clarify the
patient’s condition before discharge, and the nurse and the physician did not communicate
adequately on the patient’s status despite the patient’s developing pneumothorax, a known
complication of the patient’s procedure. Inspectors also found staff did not follow policy
related to orders, and the complainant did not use the patient incident reporting (PIR)
system to notify responsible managers of the event. OIG recommended that managers
develop policy to standardize the hand-off communication process. The review also
recommended that staff adhere to medical center policies as they relate to orders, and
be educated on the use of the PIR system for reporting real or potentially harmful patient
related occurrences. The VISN and VAMC directors provided acceptable improvement plans.
(Healthcare Inspection, Clinical and Administrative Issues, Ralph H. Johnson VA Medical
Center, Charleston, South Carolina)




8      •    Health Care Delivery
October 1, 2006–March 31, 2007                             VA Ofﬁce of Inspector General


Emergency Shows Need to Improve Response Process in Oklahoma City
OIG conducted a review to determine the validity of allegations of inappropriate treatment
of a patient. The patient was admitted to the cardiac intensive care unit (CICU) with
uncontrolled diabetes. He became infected and was placed on a ventilator. His condition
deteriorated, and several physicians and nurses performed an emergency amputation
of his right lower leg at his CICU bedside. Complainants alleged that performing the
amputation in the CICU was inappropriate, several staff members declined to be involved,
the amputation was performed without an anesthesiologist, and the patient did not receive
adequate pain management. Healthcare inspectors did not substantiate the allegations.
However, OIG determined the patient had previously called the facility Telcare program
and reported pain and swelling in his right lower leg. A primary care nurse attempted to
call the patient 2 days later, but the line was busy. Inspectors did not ﬁnd documentation
of earlier attempts to contact the patient. OIG recommended the VISN and VAMC
directors take action to review the Telcare triage and response process to ensure calls are
appropriately prioritized and followed up in an efﬁcient and timely manner. The VISN and
VAMC directors provided acceptable improvement plans. (Healthcare Inspection, Alleged
Inappropriate Treatment, Oklahoma City VA Medical Center, Oklahoma City, Oklahoma)

OFFICE OF AUDIT
OIG audits of VA programs focus on the effectiveness of health care delivery for veterans.
These audits identify opportunities for enhancing management of program operations and
provide VA with constructive recommendations to improve health care delivery.

OIG Identiﬁes Ways to Improve Controls over Prescription Drugs
In a summary report of OIG CAP reviews at 22 VHA medical facilities between January
and September 2005, OIG reported that staff at 16 facilities did not always comply with
internal controls for detecting, preventing, and reporting thefts of prescription drugs. OIG
recommended the Acting Under Secretary for Health, in conjunction with the Chief Network
Ofﬁcer (CNO), ensure that medical facility managers use the ﬁndings in CAP reports during
their internal review to assess the adequacy of controlled substances inspection procedures
and physical security efforts, take action to improve them where needed, enforce theft
reporting requirements, and ensure controlled substances retained by research service
staff are included in all related internal control procedures. OIG further recommended the
Acting Under Secretary for Health, also in conjunction with the CNO, make certain that
medical facility managers ensure the use of required automated inventory control systems
and enforce compliance with controlled substances receiving and physical inventory
requirements. The Acting Under Secretary for Health provided acceptable improvement
plans. (Review of VA Medical Facility Compliance with Controls over Prescription Drugs)

OFFICE OF INVESTIGATIONS
The OIG Ofﬁce of Investigations (OI) conducts criminal investigations into allegations of
patient abuse, facility security, drug diversion, theft of VA pharmaceuticals or medical
equipment, false claims for health care beneﬁts, and other frauds relating to the delivery
of health care to millions of veterans. In the area of health care delivery, OIG opened 127
cases, made 90 arrests, and obtained $194,176,882 in ﬁnes, restitution, penalties, and civil
judgments as well as savings, efﬁciencies, cost avoidance, and recoveries.

Conspiracy to Steal Drugs Nets Former Pharmacist 18-month Sentence
An OIG investigation determined that a former VA pharmacist conspired with two business
associates to steal drugs and other pharmaceutical products from a VA pharmacy. He was
sentenced to serve 18 months’ incarceration and 3 years’ probation, and was ordered to
pay $670,000 in restitution.

Fraud Nets Veteran $230,000 in Health Care and $134,000 in Beneﬁts
OIG investigators determined that a veteran provided false statements in applying for
beneﬁts for post-traumatic stress disorder (PTSD) regarding stressors he claimed exposure
to. He also submitted altered letters from VA and Social Security Administration (SSA) to
obtain fraudulent Department of Defense and state identiﬁcation and then used them to



                                                              Health Care Delivery    •      9
Semiannual Report to Congress                            October 1, 2006–March 31, 2007


commit bank fraud. The loss to VA was $230,000 in health care costs and $134,000 in
beneﬁts. The veteran was arrested for making false claims, mail fraud, wire fraud, and
health care fraud.

Veteran’s Brother Admits Identity Theft to Receive Medical Care
An investigation by OIG and VA police determined that the brother of a veteran
fraudulently received VA medical treatment for approximately 3 years. The veteran’s
brother pled guilty to making false statements, admitting to fraudulently receiving $94,000
in VA medical care as a result of impersonating his brother.

VA Employee Convicted in $225,475 in Workers’ Compensation Scheme
A former VA employee who falsely reported that he was unemployed and had no earned
income—when in fact he operated his own business as a general contractor—was found
guilty of making false statements and bankruptcy fraud in a scheme to fraudulently obtain
approximately $225,475 in workers’ compensation beneﬁts. He also failed to report his
beneﬁts as income to a bankruptcy court.

VA Nurse Charged with Diverting 1,050 Narcotics Doses in a Year
A joint OIG and VA police investigation determined that a VAMC registered nurse diverted
narcotics in the names of patients who had been discharged from the facility or had no
physician’s order for the narcotics. The nurse, who diverted a total of 1,050 doses of
percocet, hydromorphine, morphine, and other narcotics during a 1-year period, was
charged with theft of controlled narcotics.

False Claim Costs VA Approximately $460,000
A veteran pled guilty to making false statements after an OIG investigation revealed that
he misrepresented the existence and severity of several injuries, which he fraudulently
claimed were related to his military service. He also used the alleged injuries as the basis
for ﬁling a $2 million tort claim against the U.S. Air Force. The loss to VA is approximately
$460,000.

OIG HOTLINE
In the area of health care, the OIG Hotline receives allegations that include patient
abuse, theft of VA pharmaceuticals or medical equipment, and false claims for health care
beneﬁts. The Hotline oversees the review and resolution of serious problems, and by doing
so, contributes to raising the quality of care for the Nation’s veterans.

Review Addresses Questionable Practices in Intensive Care Unit
A VHA review found multiple examples of questionable medical and nursing practices at
an intensive care unit. Deﬁciencies included employees’ failure to report physician errors,
decreased levels of staff supervision, and lack of knowledge of current medical procedures.
Management addressed these deﬁciencies through staff training and education, internal
reviews, and an ongoing monitoring program.

Hotline Notes Communication and Treatment Lapses, Helps Veteran
A VHA review determined that lapses in communication between a veteran’s treatment
providers at two VAMCs, and a physician’s failure to order a diagnostic test at the facility
nearest to the veteran led to the veteran’s surgery being delayed. Medical management
authorized full payment for the veteran’s surgery at a private facility of his choice.

Administrative Errors Result in Switched Medications
A VHA review found that administrative errors resulted at least twice in veterans with the
same name receiving each other’s medications. Additionally, because the labels on the
prescriptions included sensitive personal data, the review substantiated privacy violations
related to the incidents. In response, management took action to ensure employees
assembling the shipments are able to see the addresses of these individuals in order to
select the appropriate recipient, and established a procedure to reissue medications if such
errors occur in the future.



10      •   Health Care Delivery
October 1, 2006–March 31, 2007 	                            VA Ofﬁce of Inspector General


                             Beneﬁts Processing
Many veterans, especially returning OEF/OIF veterans, need a variety of beneﬁts and
services in order to transition to civilian life. OIG works to improve the delivery of these
beneﬁts and services by identifying opportunities to improve the quality, timeliness, and
accuracy of beneﬁts processing. In addition, OIG reduces criminal activity in the delivery
of beneﬁts through proactive and targeted audit and investigative efforts.

OFFICE OF AUDIT
OIG performs audits of veterans’ beneﬁts programs focusing on the effectiveness
of beneﬁts delivery to veterans, dependents, and survivors. These audits identify
opportunities for enhancing the management of program operations and provide VA with
constructive recommendations to improve the delivery of beneﬁts.

VBA, VHA Coordination Needs Improvement for Hospitalized Veterans
OIG evaluated the effectiveness of VBA procedures for adjusting compensation and pension
(C&P) beneﬁts for hospitalized veterans. The objectives were to evaluate the effectiveness
of:
  • 	VA regional ofﬁce (VARO) procedures for adjusting compensation beneﬁts of veterans
     hospitalized at Government expense for more than 90 days.
  • 	VARO procedures for adjusting pension beneﬁts of veterans who were hospitalized at
     Government expense before a November 7, 2003, VBA training letter directed pension
     maintenance centers (PMC) to make hospital adjustments for veterans in receipt of VA
     pension beneﬁts.
  • 	PMC procedures for adjusting pension beneﬁts of veterans hospitalized at Government
     expense for more than 90 days.
  • 	The exchange of information for hospitalized veterans between the PMCs and the 

     VAROs.

  • 	Plans implemented in response to a prior OIG recommendation.
  • 	Local and VHA policies and procedures used to provide patient data for the automated
     medical information exchange and C&P record interchange systems.
The auditors found inefﬁciencies and inadequacies in procedures, training, information
exchanges, accuracy of information, and priority of making hospital adjustments, totalling
$10,203,975 in better use of funds. OIG made recommendations for increased VBA-VHA
coordination. (Audit of Adjustments of Hospitalized Veterans’ Compensation and Pension
Beneﬁts)

Inaccuracies Revealed in VBA PMC Payment Processing
In January 2002, VBA consolidated its pension maintenance processing into three PMCs.
The OIG audit of VBA consolidation efforts found VBA could improve the accuracy of
processing beneﬁciary income adjustments, processing eligibility veriﬁcation reports, and
scanning and ﬁling documents, as well as the timeliness of processing of C&P system
messages. OIG estimated that 5.2 percent of beneﬁciaries received inaccurate award
payments totaling $13.4 million. Of the $13.4 million, beneﬁciaries received $9.4 million in
overpayments and $4.0 million in underpayments. OIG recommended the Under Secretary
for Beneﬁts standardize and implement more effective procedures and provide appropriate
training. (Audit of Veterans Beneﬁts Administration’s Pension Maintenance Program
Administered by the Pension Maintenance Centers)

OFFICE OF INVESTIGATIONS
VA administers a number of ﬁnancial beneﬁts programs for eligible veterans and certain
family members. Among the beneﬁts are VA guaranteed home loans, education,
insurance, and monetary beneﬁts provided by the C&P Service. With respect to VA



                                                                 Beneﬁts Processing     •      11
Semiannual Report to Congress                          October 1, 2006–March 31, 2007


guaranteed loans, OI conducts investigations of loan origination fraud, equity skimming,
and criminal conduct related to management of foreclosed loans or properties.
C&P investigations routinely concentrate on payments being made to ineligible individuals.
For example, a beneﬁciary may feign a medical disability to deliberately defraud the
VA compensation program. The VA pension program, which is based on the beneﬁciary’s
income, is often defrauded by individuals who fail to report income in order to stay below
the eligibility threshold for these beneﬁts. An ongoing proactive income veriﬁcation match
identiﬁes possible fraud in the pension program. OI also conducts an ongoing death
match project that identiﬁes deceased beneﬁciaries of the VA C&P program whose beneﬁts
continue because VA was not notiﬁed of the death. In this reporting period, the death
match project recovered $2.7 million, with another $2.1 million in anticipated recoveries.
Generally, family members of the deceased are responsible for this type of fraud. In the
area of beneﬁts processing, OIG opened 357 cases, made 95 arrests, and had $23,515,213
in ﬁnes, restitution, penalties, and civil judgments as well as savings, efﬁciencies, cost
avoidance, and recoveries.

Marine’s Wife Poisons Him in Attempt to Gain Survivor’s Beneﬁts
The widow of an active duty Marine was convicted of murder for ﬁnancial gain. A joint
Naval Criminal Investigative Service and OIG investigation determined that the widow
poisoned her husband with arsenic for the purpose of obtaining his $250,000 military life
insurance beneﬁt and VA dependency and indemnity compensation (DIC) beneﬁts.

Suspect Convicted of Making $220,000 in False Beneﬁts Claims
A veteran was convicted of wire fraud after OIG investigators determined he made false
claims to qualify for compensation related to PTSD and collected beneﬁts to which he was
not entitled. The loss to VA was approximately $220,000.

Two Sentenced, Ordered to Repay $231,386 in Beneﬁts Conspiracy
Two defendants were sentenced after pleading guilty to theft of Government funds and
conspiracy. The ﬁrst defendant was sentenced to 5 months’ incarceration and 2 years’
probation, and the second defendant was sentenced to 1 year of probation. They were
ordered to pay combined restitution of $231,386. An OIG investigation revealed that
since 1975 both defendants conspired to defraud VA of DIC beneﬁts by failing to report the
remarriage of one of the defendants.

Employed Man Charged with Fraud for Claiming Unemployability
A veteran receiving VA compensation beneﬁts based on his unemployability mailed an
employment questionnaire to VA stating he had not been employed at any time during the
past 12 months, when, in fact, he had worked continuously from 1990 through 2005.
In an effort to conceal his employment from VA, the veteran had paychecks made out to
his wife and son. The VA loss was approximately $170,000. He was charged with mail
fraud.

Veteran’s Daughter, Son-in-law Sentenced for Misappropriating $500,000
An OIG investigation determined that while acting as ﬁduciaries the daughter and
son-in-law of an incompetent veteran misappropriated approximately $500,000 of
the veteran’s funds. The son-in-law was sentenced to 6 months’ incarceration and 36
months’ probation. The veteran’s daughter was sentenced to 60 months’ probation. Both
defendants were ordered to make restitution of $185,000 to the veteran’s estate after
pleading guilty to misappropriating funds by a ﬁduciary and misprision of a felony.

Daughter Caught Cashing Deceased Mother’s Checks Since 1984
The daughter of a VA beneﬁciary was sentenced to 6 months’ home conﬁnement and
5 years’ probation, and was ordered to pay $185,984 in restitution after being convicted
of theft of Government funds. An OIG investigation revealed that the daughter received,
forged, and negotiated her deceased mother’s VA beneﬁciary checks since 1984.




12     •   Beneﬁts Processing
October 1, 2006–March 31, 2007                              VA Ofﬁce of Inspector General


Veteran and Wife Convicted of Defrauding VA and Social Security
After a complaint called into the OIG Hotline, a joint investigation with SSA OIG determined
a veteran and his wife submitted false stressor information to VA about his military service.
Based on his submission and his wife’s false statements, VA awarded 100 percent PTSD
compensation beneﬁts, and SSA awarded disability beneﬁts. The VA loss was $171,082
and the loss to SSA was $111,300. The veteran and his wife were convicted of wire fraud,
social security fraud, false statements, and theft of Government funds.

OIG HOTLINE
The OIG Hotline receives numerous allegations of fraud against VA veteran ﬁnancial
beneﬁts programs. Many of these contacts result in investigations of criminal conduct that
recover signiﬁcant sums of money or provide veterans help they need.

Review Saves $439,317 in Payments to Cancer-free Veteran
A VBA review determined a veteran continued to receive VA compensation at the 100
percent rate for cancer, although he had been cancer-free for over 10 years. The VARO
failed to conduct follow-up examinations following the initial award. After an expedited
physical examination, the VARO reduced the veteran’s disability level and adjusted his
beneﬁts, resulting in a lifetime savings to the Government of $439,317.

Review Speeds Delayed Processing of Examination for Veteran
A VBA review concluded that a VARO delayed for nearly a year processing the results of
a veteran’s mental health examination, which found him competent to manage his VA
beneﬁts. As a result, VARO staff processed the change and terminated the guardianship
appointment.

Veteran Given New Guardian After Being Left at VAMC by Son
A VBA review determined that a veteran’s son, who served as the veteran’s ﬁduciary,
left the veteran in a VA hospital and contacted the VARO to request he be relieved of his
custodial responsibilities for his father’s beneﬁts. The VARO ordered a ﬁeld examination
and appointed a new guardian.




                                                              Beneﬁts Processing     •      13
Semiannual Report to Congress                          October 1, 2006–March 31, 2007


                          Financial Management
VA must provide all its departmental activities with accurate, reliable, and timely
information for sound oversight and decision making. Since 1999, VA has achieved
unqualiﬁed (“clean”) audit opinions on its consolidated ﬁnancial statements (CFS).
OIG audits and reviews identify areas in which VA can improve ﬁnancial management
controls, data validity, and debt management.

OFFICE OF AUDIT
OIG performs audits of ﬁnancial management operations, focusing on adequacy of VA
ﬁnancial management systems in providing managers information needed to efﬁciently and
effectively manage and safeguard VA assets and resources. OIG oversight work satisﬁes
the Chief Financial Ofﬁcer Act of 1990 audit requirements for Federal ﬁnancial statements
and provides timely, independent, and constructive reviews of ﬁnancial information,
programs, and activities. OIG reports provide VA with constructive recommendations
needed to improve ﬁnancial management and reporting throughout the Department.

VA Receives Unqualiﬁed FY 2006 Audit Opinion with Material Weaknesses
OIG contracted with the independent public accounting ﬁrm, Deloitte & Touche LLP, to audit
the VA FY 2006 CFS. The report provided an unqualiﬁed opinion on the VA FY 2006 CFS.
However, the report on internal controls identiﬁed three material weaknesses in IT security
controls, lack of an integrated ﬁnancial management system, and operational oversight.
All three material weaknesses are repeated from FY 2005. The report also referred to
two reportable conditions identiﬁed by management as a result of an internal control
assessment pursuant to Ofﬁce of Management and Budget Circular A-123, Management’s
Responsibility for Internal Control. These reportable conditions were identiﬁed as
“Transactions rejected by Financial Management System” and “Intergovernmental
Transactions.” The report continued to show that VA was not in substantial compliance
with requirements of the Federal Financial Management Improvement Act of 1996 because
of the three material weaknesses described above. OIG will follow up and evaluate the
implementation of corrective actions during the audit of the VA FY 2007 CFS. (Report
of the Audit of the Department of Veterans Affairs Consolidated Financial Statements for
Fiscal Years 2006 and 2005)

$13.7 Million Incorrectly Accounted for as Disaster Relief Costs
An OIG audit of internal controls associated with the recovery from Hurricane Katrina
found that while VHA employees successfully oversaw the evacuation of 166 patients
in Mississippi and Louisiana, VHA did not have sufﬁcient internal controls in place to
effectively account for costs resulting from relief activities. VHA needed to improve
tracking and reporting, ensure routine costs are not reported as disaster relief costs,
establish fund control points, and develop more comprehensive policies and procedures.
OIG recommended the Acting Under Secretary for Health establish controls or mechanisms
to correct the accounts and prevent recurrence of the errors. (Audit of Veterans Health
Administration’s Accounting and Oversight of Hurricane Katrina Costs)

Audit Finds Four Facilities Overpaid Medical Schools $635,340
OIG performed an audit to assess the effectiveness of VHA oversight of resident
disbursement agreements and to evaluate how effectively health care systems and
VAMCs managed disbursement agreements for senior residents. Auditors performed
onsite reviews of 70 residency training programs at 4 VAMCs and telephone surveys
at 113 VAMCs. OIG found that VHA’s Ofﬁce of Academic Afﬁliations (OAA) properly
approved payment rates, and resident salaries and beneﬁts were generally accurate
and well supported by medical school ﬁnancial and personnel records. However, VAMCs
did not comply with operational and oversight requirements, and OAA did not provide
sufﬁcient policy guidance to VAMCs. As a result, VA has no assurance that it received
a proportionate share of senior resident full-time equivalent employees or that VAMC
disbursement agreement programs were effectively managed. For academic year
2004–2005, OIG estimated 4 VAMCs overpaid medical schools $635,340 due to inadequate
timekeeping procedures in 19 programs reviewed. In addition, OIG estimated the 4 VAMCs



14     •   Financial Management
October 1, 2006–March 31, 2007                             VA Ofﬁce of Inspector General


underpaid medical schools $44,324 because of inadequate ﬁscal procedures. (Audit of VA
Disbursement Agreements for Senior Residents)

Audit Identiﬁes Opportunities to Improve VBA Internal Controls
OIG audited the VBA Administrative and Loan Accounting Center (ALAC) to determine
whether the facility was operating in accordance with applicable laws, regulations, and
policies and to assess internal controls. The review concluded that the ALAC was generally
operating in accordance with applicable laws, regulations, and policies. However, auditors
identiﬁed four opportunities to improve internal controls that amounted to nearly $400,000
in funds that could have been put to better use. OIG recommended the VBA Chief
Financial Ofﬁcer, in coordination with the Director, Loan Guaranty Service, take action to
strengthen accountability for transactions included in ALAC accounting records that are
not initiated by ALAC employees, ensure that employees’ duties are segregated whenever
practicable, and implement procedures to identify and provide additional oversight of
transactions processed by any employees whose duties are not segregated. OIG also
recommended that the ALAC Director develop and implement procedures to detect and
recover duplicate and other erroneous payments, and improve management of accounts
receivable. The Under Secretary for Beneﬁts provided acceptable implementation plans.
(Audit of the Administrative and Loan Accounting Center, Austin, Texas)

OFFICE OF INVESTIGATIONS
OIG conducts criminal and administrative investigations related to allegations of serious
misconduct with regard to VA ﬁnancial management. These investigations often indicate
weaknesses and ﬂaws in VA ﬁnancial management.

Employee Charged with Embezzling $163,000 for Over 4 Years
A VA employee was charged with theft of Government funds after a VA Fiscal Service
review and OIG investigation revealed that for over 4 years the employee embezzled
approximately $163,000 from a VA agent cashier’s ofﬁce in Anchorage, Alaska.

OIG HOTLINE
The OIG Hotline receives and processes allegations of inefﬁcient or ineffective ﬁnancial
management. Such contacts can result in improved management and cost savings for VA.

Hotline Contact Prompts Review of Payment Delays
A VHA review conﬁrmed that a VAMC did not process payments for services provided
through the fee-basis program in a timely manner. The delays resulted in part from a
shortage of staff during a period when workload increased substantially. As a result,
management began employing a variety of strategies to handle the workload, including
utilizing staff from other areas and authorizing overtime. Division management reviewed
and processed all invoices presented by the complainant, releasing payments totalling
$37,344.




                                                           Financial Management     •       15
Semiannual Report to Congress                           October 1, 2006–March 31, 2007


                          Procurement Practices
VA spends over $6 billion annually for pharmaceuticals, medical and surgical supplies,
prosthetic devices, information technology (IT), construction, and services. OIG
contract audits focus on compliance with Federal and VA acquisition regulations and
cost efﬁciencies, which resulted in recommendations for improvement. Preaward and
postaward contract reviews have resulted in $74,810,471 in monetary beneﬁts during this
reporting period.

OFFICE OF AUDIT
To improve VA acquisition programs and activities, OIG identiﬁes opportunities to achieve
economy, efﬁciency, and effectiveness for VA national and local acquisitions and supply
chain management. In addition, OIG examines how well major acquisitions are achieving
objectives and desired outcomes. The OIG efforts focus on determining whether the
Department is taking advantage of its full purchasing power when it acquires goods and
services. Auditors examine how well VA is managing and safeguarding resources and
inventories, obtaining economies of scale, and identifying opportunities to employ best
practices.

Report Finds Incident Response Contract Became an Open Checkbook
OIG evaluated the planning, award, and administration of the Central Incident Response
Capability contract, valued at $102.7 million. When the contract was allowed to expire
because of lack of funding, VA had spent approximately $91.8 million (89.4 percent)
of the total contract value. Cost overruns resulted from changing some requirements
from ﬁxed to indeﬁnite prices, making the contract an open checkbook. Of the 22 non­
competitive task orders valued at approximately $48.6 million, 17 were out of scope and
thus prohibited cardinal changes. OIG also found deﬁciencies in the planning, solicitation,
award processes, and contract administration. VA spent over $35 million to purchase
equipment and supplies under the contract and does not know what equipment it has or
where it may be located, and may have been overcharged $8.5 million in duplicate billing
and payments without deliverables. (Review of VA Central Incident Response Capability
Contract Planning, Award, and Administration)

OFFICE OF INVESTIGATIONS
OIG investigates allegations of bribery and kickbacks, bid rigging and antitrust violations,
false claims submitted by contractors, and other fraud relating to VA procurement
activities. In the area of procurement practices, OIG opened 17 cases, made 2 arrests,
and had $3,004,798 in ﬁnes, restitution, penalties, and civil judgments as well as savings,
efﬁciencies, cost avoidance, and recoveries.

Contract Process Shows Lack of Continuity, Communication
An OIG review of the contracting process for a contract with Unisys for the Patient Financial
Services System found deﬁciencies in the administration of the contract by VHA, Ofﬁce
of Acquisition and Materiel Management (OA&MM), and Ofﬁce of General Counsel. There
was a lack of continuity of personnel in the program ofﬁce and a lack of communication
among all VA entities involved in the contract. Unisys continually failed to meet contractual
deadlines, resulting in signiﬁcant project delays. Prior to August 2005, project delays were
related to problems caused by VA and Unisys. A contract modiﬁcation in August 2005
redeﬁned the deliverables and established new delivery dates to resolve these issues.
Unisys continued to miss deadlines, and VA terminated the contract. (Patient Financial
Services System Contract Planning, Award, and Administration Review, VA Central Ofﬁce)

VA Takes Administrative Action Against Two Ofﬁcials
An OIG administrative investigation substantiated that ofﬁcials in VA Central Ofﬁce and the
Austin Automation Center (AAC) did not properly plan for or compete a task order.
A former senior ofﬁcial in VA Central Ofﬁce knew for over a year that a contract would
reach its ﬁnancial cap in early 2006 and a new contract would therefore be required.
However, he did not request options for a new contract until December 2005. As a result


16     •   Procurement Practices
October 1, 2006–March 31, 2007                              VA Ofﬁce of Inspector General


of his poor planning, AAC acquisition ofﬁcials were unnecessarily pressured to make an
immediate award, which contributed to an improperly competed task order. The responsible
contracting ofﬁcer, with her supervisor’s knowledge, failed to comply with requirements
mandating competition. Additionally, a staff attorney did not adequately research
acquisition regulations before providing legal advice. VA ofﬁcials agreed to take appropriate
administrative action against the contracting ofﬁcer and her supervisor. (Administrative
Investigation, Improper Selection of a Contractor Austin Automation Center Austin, TX)

VHA Manager Sentenced for Receiving Kickbacks
A consolidated mail out pharmacy (CMOP) manager, who pled guilty to conﬂict of interest
charges for negotiating for employment with a private company at the same time she was
involved in her ofﬁcial capacity in the establishment of a business relationship with that
company, was sentenced to 46 months’ incarceration, ﬁned $10,000, and placed on 3 years’
probation. The court found she personally received more than $115,000 in kickbacks from a
company that was selling security tape to the VA at inﬂated prices, contributing to more than
$400,000 in total losses to the VA. Another former CMOP employee pled guilty to conﬂict
of interest charges after OIG investigators determined he had been involved in a fraudulent
scheme with the CMOP manager. The former CMOP employee was sentenced to serve 24
months’ supervised probation and was ﬁned $5,000. The vendor involved with the kickbacks
was sentenced to 3 years’ probation and was ordered to make $263,620 in restitution to VA.

Joint Investigation Results in $3.25 Million Settlement for False Claims
A joint OIG-Government Accountability Ofﬁce investigation in response to a qui tam complaint
determined that an optical supply company submitted false claims and false statements
regarding their products sold to VA and veterans. The investigation found the company
routinely submitted claims that were fraudulent due to the inclusion of false certiﬁcations,
non-prescribed add-ons, non-rendered services including ultraviolet and scratch coating,
product substitution, and the involvement of unlicensed dispensers. The company agreed to a
$3.25 million settlement with the Federal government.

Funeral Director and VA Employee Sentenced in Bribery Scheme
Following an OIG investigation, a former VA employee was sentenced to 1 year of probation
and ordered to make $173,000 in restitution to VA after pleading guilty to receiving bribes.
A funeral director, who bribed the VA employee and received $361,500 from VA for burial
services not rendered, was sentenced to 13 months’ incarceration and 3 years’ probation, and
was also ordered to pay $173,000 in restitution to VA.

$63,000 Kickback Scheme Inﬂates Cost of VAMC Spinal Cord Injury Unit
A joint investigation with the FBI determined that a subcontractor employee paid a $63,000
kickback to the prime contractor’s project manager to secure work on a spinal cord injury unit
at the James A. Haley VAMC. The subcontractor employee increased the price of the proposed
subcontract by essentially the amount of the kickback and passed the inﬂated costs on to VA
through a fraudulent change order to the prime contract. The project manager pled guilty
to conspiracy charges and making false statements. The subcontractor corporation and the
president were subsequently convicted of conspiracy and kickback charges.

Employees Accept Gift, Money from Medical Products Company
A part-time physician improperly accepted a gift from a prohibited source, allowing a medical
products company doing business with VA to pay for expenses associated with a trip he
took to another VA facility to conduct ofﬁcial business. An administrative investigation
substantiated that the physician also improperly accepted an honorarium from the company
for a presentation he made to VA employees. Investigators found that other VA employees
also improperly accepted reimbursement of travel expenses and/or meals from the prohibited
source. The investigation also determined that the physician misused his ofﬁcial VA time to
perform professional remunerated services for the company. VHA agreed to take appropriate
administrative action against the physician and the service chiefs at both VA facilities who
allowed staff to accept gifts, ensure that the physician returns the value of the gift and
honorarium, require other staff to return the value of gifts they received, and ensure that the
physician takes annual leave for the time he misused.




                                                           Procurement Practices     •    17
Semiannual Report to Congress                            October 1, 2006–March 31, 2007


     OIG HOTLINE
     The OIG Hotline receives and processes allegations of bribery, kickbacks, bid rigging,
     and other fraud relating to VA’s procurement. Many such contacts result in criminal
     investigations and cost savings for VA.

     Hotline Contact Results in Terminating Contract Services
     A VHA review substantiated the complainant’s report that a contractor did not fulﬁll his
     contractual obligations, failed to meet expected performance standards and, in some cases,
     failed to complete projects. VHA also substantiated the complainant’s charge of being
     coerced by a contractor’s representative to change a negative report on work performed.
     Management terminated the services of the contractor.

     OFFICE OF CONTRACT REVIEW
     The Ofﬁce of Contract Review (OCR) operates under a reimbursable agreement with
     OA&MM to provide preaward, postaward, and other requested reviews of vendors’
     proposals and contracts. In addition, OCR provides advisory services to OA&MM
     contracting activities. OCR has a staff of 25, and completed 42 reports in this reporting
     period. The tables that follow provide an overview of OCR performance.

     PREAWARD REVIEWS
     Preaward reviews provide information to assist VA contracting ofﬁcers in negotiating fair
     and reasonable contract prices and ensuring price reasonableness during the term of the
     contract. Preaward reviews identiﬁed $70,013,528 in potential cost savings during this
     reporting period. In addition to Federal Supply Schedule proposals, preaward reviews
     during this reporting period included 11 health care provider proposals—accounting for
     $17,893,161 of the identiﬁed potential savings—and 6 direct delivery equipment proposals
     accounting for $20,495,537. Reports resolved through negotiations by contracting ofﬁcers
     continue to sustain a high percentage of recommended savings. For 11 reports, the
     sustained savings rate was 67 percent.


                                                                  October 1, 2006–
                                                                   March 31, 2007

              Preaward Reports Issued                                      28

                Potential Cost Savings                               $70,013,528


     Recruiting for Health Care Resources Part of $1.4M in Potential Savings
     As a result of OCR preaward reviews on two proposals from an afﬁliated medical school for
     scarce medical specialist services, a VAMC cancelled the solicitations in favor of recruiting
     and hiring the needed physicians. OCR reports identifying signiﬁcant unsupported
     costs contained recommended potential savings of over $1.4 million. The action by
     the VAMC complies with VA Directive 1663, Health Care Resources Contracting–Buying,
     which stipulates the VA facility must ﬁrst attempt a good faith effort to recruit or clearly
     demonstrate why VA cannot recruit and hire the needed clinicians.

     POSTAWARD REVIEWS
     Postaward reviews ensure vendors’ compliance with contract terms and conditions,
     including compliance with Public Law 102-585, the Veterans Health Care Act of 1992, for
     pharmaceutical products. OCR reviews resulted in VA recovering contract overcharges
     totaling $4,796,943, including nearly $4 million related to Veterans Health Care Act
     compliance with pricing requirements, recalculation of Federal ceiling prices, and
     appropriate status of pharmaceutical products. Postaward reviews also highlight the
     continuing success of the VA informal voluntary disclosure program. Of the 14 postaward




18      •   Procurement Practices
    October 1, 2006–March 31, 2007                            VA Ofﬁce of Inspector General


reviews performed, 9 involved voluntary disclosures. In 6 of the 9 reviews, OCR identiﬁed
additional funds due.


                                                          October 1, 2006–
                                                           March 31, 2007

        Postaward Reports Issued                                   14

             Dollar Recoveries                                $4,796,943




                                                              Procurement Practices    •    19
Semiannual Report to Congress                            October 1, 2006–March 31, 2007


                             Information Management
     IT plays a critical role in all VA operations. OIG oversight work in the IT area includes
     audits, criminal investigations, and reviews of IT security policies and procedures. The
     loss in May 2006 of VA data on approximately 26 million veterans and military personnel
     highlighted challenges facing VA information security. Since then, VA has shown
     increased awareness of IT security concerns and has initiated a number of efforts aimed
     at improvement. OIG has particularly noted VA commitment to centralizing IT functions,
     funding, and staff under the direction of the Department’s Chief Information Ofﬁcer.
     Serious problems remain, however, and OIG will continue close oversight of extensive VA IT
     activity.

     OFFICE OF INVESTIGATIONS
     OI investigates theft of IT equipment or data, network intrusions, identity theft, and child
     pornography. In the area of information management crimes, OIG opened 6 cases, made
     14 arrests, and had $59,621 in ﬁnes, restitution, penalties, and civil judgments as well as
     savings, efﬁciencies, cost avoidance, and recoveries.

     Data Theft Case Defendants Plead Guilty after Joint Investigation
     The May 3, 2006, theft of a VA employee’s laptop computer and an external hard drive that
     stored the personal information of millions of veterans and active duty service members
     caused widespread concern over information security issues and possible identity theft.
     Both defendants pled guilty to ﬁrst degree burglary as the result of a joint investigation by
     OIG, FBI, and Montgomery County police and were sentenced to 5 years’ incarceration with
     all but 6 months suspended, 3 years’ probation, and 60 hours’ community service.

     VAMC Employee Arrested and Fired for Possession of Child Pornography
     After the discovery of child pornography in a hospital closet used by a Milwaukee VAMC
     employee, a joint OIG investigation with VA and local police resulted in a search of the
     employee’s residence and personal computer. Investigators discovered over 800 sexually
     graphic images of children. The employee was arrested, charged with possession of child
     pornography, and subsequently terminated from VA employment.




20       •   Information Management
    October 1, 2006–March 31, 2007                              VA Ofﬁce of Inspector General


                  Other Signiﬁcant OIG Activities
CONGRESSIONAL TESTIMONY
Inspector General Testiﬁes on Challenges in Oversight of VA Programs
Inspector General Opfer testiﬁed before the House Committee on Veterans’ Affairs
Subcommittee on Oversight and Investigations on February 15, 2007. He discussed the
challenges OIG faces in providing oversight of VA to ensure it effectively serves America’s
veterans, and the impact OIG has on VA operations and programs. “In the 6-year period
FY 2001–2006,” Mr. Opfer said, “OIG delivered a return on investment of $31 for every
dollar invested in OIG operations.” He outlined key challenges facing VA in need of
additional oversight, including health care and beneﬁts for returning OEF/OIF veterans,
research, protection of VA data, IT, and procurement.

OIG Reports Long-standing IT Risks and Vulnerabilities Still Remain
In testimony on February 28, 2007, senior OIG ofﬁcials told the House Committee on
Veterans’ Affairs Subcommittee on Oversight and Investigations that major risks and
vulnerabilities in VA information and information systems previously identiﬁed in OIG work
still remain. OIG reported that VA recognizes the need to move ahead on implementing
the 23 recommendations contained in two major 2006 OIG reports, but only one of those
recommendations has been closed. However, OIG testimony noted that VA has initiated
positive steps focused on policies, awareness, and training, and has taken initial steps
toward implementing a more centralized Department-wide IT security program.

PEER REVIEW
Ofﬁce of Audit Receives Top Marks in External Peer Review
According to Generally Accepted Government Auditing Standards, OIG auditing practices
must be independently reviewed at least once every 3 years. The Department of Justice
(DOJ) OIG reviewed the system of quality control in effect for the year ending September
30, 2006, for OIG’s Ofﬁce of Audit. The DOJ review provided an “unmodiﬁed opinion,”
meaning that the quality control system met the established requirements and provided
reasonable assurance that OIG met applicable auditing standards, policies, and procedures
intended to ensure that auditors maintain competence, integrity, objectivity, and
independence in planning, conducting, and reporting their work. An “unmodiﬁed” opinion
is the highest level of opinion that a Federal audit organization can achieve for its system
of quality control.




                                                       Other Signiﬁcant OIG Activities    •    21
             Semiannual Report to Congress                            October 1, 2006–March 31, 2007



                                              APPENDIX A

                            DEPARTMENT OF VETERANS AFFAIRS
                              OFFICE OF INSPECTOR GENERAL
                                         REPORTS

  Report                                                                  Funds Recommended
 Number/                                                                      for Better Use
Issue Date                    Report Title                                OIG        Management   Questioned Costs

COMBINED ASSESSMENT PROGRAM REVIEWS

06-03479-07         Combined Assessment Program Review of
10/19/2006          the VA Medical Center, Beckley, WV
06-02004-14         Combined Assessment Program Review
10/25/2006          of the James A. Haley VA Medical Center,
                    Tampa, FL
06-01134-20         Combined Assessment Program Review of
11/6/2006           the James J. Peters VA Medical Center,
                    Bronx, NY
06-01721-32         Combined Assessment Program Review of
11/27/2006          the El Paso VA Health Care System, El Paso,
                    TX
06-02815-37         Combined Assessment Program Review of
12/8/2006           the VA Health Care System, Amarillo, TX
06-01133-39         Combined Assessment Program Review
12/8/2006           of the Hudson Valley Health Care System,
                    Montrose, NY
06-02817-42         Combined Assessment Program Review of
12/13/2006          the VA Roseburg Health Care System,
                    Roseburg, OR
06-02107-43         Combined Assessment Program Review of
12/15/2006          the Augusta VA Medical Center, Augusta, GA
06-00636-44         Combined Assessment Program Review of
12/15/2006          the Sheridan VA Medical Center, Sheridan,
                    WY
06-02822-45         Combined Assessment Program Review of
12/15/2006          the Central Alabama Veterans Health Care
                    System, Montgomery, AL
07-00127-52         Combined Assessment Program Review of
1/2/2007            the Bath VA Medical Center, Bath, NY
06-03480-54         Combined Assessment Program Review
01/5/07             of the John D. Dingell VA Medical Center,
                    Detroit, MI
06-03710-76         Combined Assessment Program Review of
02/5/07             the Chillicothe VA Medical Center, Chillicothe,
                    OH




22      •     Appendix
October 1, 2006–March 31, 2007                                  VA Ofﬁce of Inspector General


  Report                                                               Funds Recommended
 Number/                                                                   for Better Use
Issue Date                Report Title                                 OIG        Management    Questioned Costs


06-01519-78     Combined Assessment Program Review of
02/6/07         the Cheyenne VA Medical Center, Cheyenne,
                WY
06-02822-79     Combined Assessment Program Review
02/8/07         of the Overton Brooks VA Medical Center,
                Shreveport, LA
06-00507-83     Combined Assessment Program Review of
02/12/07        the VA Ann Arbor Healthcare System, Ann
                Arbor, MI
06-03482-86     Combined Assessment Program Review of
02/26/07        the VA North Texas Healthcare System,
                Dallas, TX
06-03484-96     Combined Assessment Program Review of
03/14/07        the VA Sierra Nevada Healthcare System,
                Reno, NV
07-00157-97     Combined Assessment Program Review
03/14/07        of the Tuscaloosa VA Medical Center,
                Tuscaloosa, AL
07-00795-99     Combined Assessment Program Review of
03/14/07        the Carl Vinson VA Medical Center, Dublin,
                GA
06-02818-100    Combined Assessment Program Review of
03/14/07        the St. Louis VA Medical Center, St. Louis,
                MO
06-00637-104    Combined Assessment Program Review of
03/21/07        the Grand Junction VA Medical Center, Grand
                Junction, CO
07-00268-110    Combined Assessment Program Review
3/29/07         of the Louis Stokes VA Medical Center,
                Cleveland, OH



HEALTHCARE INSPECTIONS


05-01658-03     Healthcare Inspection, Evaluation of
10/6/2006       Radiology and Laboratory Service Timeliness
                in Veterans Health Administration Facilities
06-02149-04     Healthcare Inspection, Quality of Care
10/6/2006       Issues, Community Based Outpatient Clinic,
                Hilo, HI
06-00464-06     Healthcare Inspection, Quality of Care Issues
10/18/2006      Jesse Brown VA Medical Center, Chicago, IL
06-01361-15     Healthcare Inspection, Management of the
10/25/2006      Operating Room and Quality of Care Issues,
                James A. Haley VA Medical Center, Tampa, FL




                                                                                         Appendix    •   23
             Semiannual Report to Congress                          October 1, 2006–March 31, 2007


  Report                                                           Funds Recommended
 Number/                                                               for Better Use
Issue Date                  Report Title                           OIG        Management   Questioned Costs


05-02939-19       Healthcare Inspection, Radiology Issues VA
11/3/2006         Medical Center, West Palm Beach, FL
06-01673-22       Healthcare Inspection, Alleged Poor
11/3/2006         Psychiatric Care and Delay in Diagnosis and
                  Treatment Salem VA Medical Center, Salem,
                  VA
06-02548-21       Healthcare Inspection, Quality of Care and
11/6/2006         Environmental Conditions Northport VA
                  Medical Center, Northport, NY
06-03124-27       Healthcare Inspection, Discharge, Shelter
11/22/2006        Environment, and Staff Support Issues at the
                  VA Greater Los Angeles Health Care System,
                  Los Angeles, CA
06-02181-29       Healthcare Inspection, Clinical and
11/24/2006        Administrative Issues Ralph H. Johnson VA
                  Medical Center, Charleston, SC
06-02365-30       Healthcare Inspection, Patient Safety,
11/24/2006        Infection Control, and Mismanagement
                  Tennessee Valley Health Care System,
                  Nashville, TN
05-00081-36       Healthcare Inspection, Evaluation of
12/8/2006         Quality Management in Veterans Health
                  Administration Facilities Fiscal Years 2004
                  and 2005
06-00687-38       Healthcare Inspection, Alleged Inappropriate
12/8/2006         Treatment Oklahoma City VA Medical Center,
                  Oklahoma City, OK
06-02021-46       Healthcare Inspection, Credentialing,
12/13/2006        Privileging, and Pay Irregularities VA Medical
                  Center, Oklahoma City, OK
06-01674-47       Healthcare Inspection, Alleged Delay in
12/21/2006        Colorectal Cancer Diagnosis and Treatment
                  Kansas City VA Medical Center, Kansas City,
                  MO
06-02682-53       Healthcare Inspection, Research
1/2/2007          Irregularities VA Medical Center, Durham, NC
05-01223-56       Review of Resident Supervision
01/8/07           Documentation and Billing Practices in
                  Veterans Health Administration Facilities
06-01961-57       Healthcare Inspection, Alleged Conﬂict of
01/8/07           Interest and Breach of Conﬁdentiality in
                  VHA’s Merit Review Process
06-02429-62       Healthcare Inspection, Quality of Care Issues
01/23/07          at the Amarillo VA Health Care System,
                  Amarillo, TX




24     •     Appendix
October 1, 2006–March 31, 2007                                  VA Ofﬁce of Inspector General


  Report                                                               Funds Recommended
 Number/                                                                   for Better Use
Issue Date                Report Title                                 OIG        Management    Questioned Costs


06-01952-63     Alleged Documentation Irregularities and
01/23/07        Human Subjects Protection Violations at Bay
                Pines VA Healthcare System, Bay Pines, FL
06-03158-64     Healthcare Inspection, Quality of Care Issues
01/23/07        Claremore Veterans Center, Claremore, OK
06-02470-66     Healthcare Inspection, Quality of Care Issues
01/30/07        VA Medical Center, Lexington, KY
05-00379-91     Review of Patient Safety in the Operating
02/28/07        Room in Veterans Health Administration
                Facilities
06-02265-106    Healthcare Inspection, Community
3/23/07         Residential Care Program Review, Maryland
                Health Care System, Baltimore, MD
06-00014-108    Healthcare Inspection, Evaluation of
3/28/07         Quality Management in Veterans Health
                Administration Facilities Fiscal Year 2006


INTERNAL AUDITS

06-01279-24     Report of the Audit of the Department of
11/14/2006      Veterans Affairs Consolidated Financial
                Statements for Fiscal Years 2006 and 2005
05-01234-25     Audit of VA Disbursement Agreements for                $591,016        $591,016
11/15/2006      Senior Residents
05-01399-41     Audit of the Administrative and Loan                   $398,766        $398,766
12/11/2006      Accounting Center, Austin, TX
05-01143-71     Audit of Adjustments of Hospitalized                $10,203,975     $10,203,975
02/1/07         Veterans’ Compensation and Pension
                Beneﬁts
06-00595-101    Audit of Veterans Health Administration’s           $13,700,000     $13,700,000
03/15/07        Accounting and Oversight of Hurricane
                Katrina Costs
07-00753-102    Independent Review of VA’s Fiscal Year 2006
3/15/07         Detailed Accounting Submission to the Ofﬁce
                of National Drug Control Policy
05-03180-111    Audit of Veterans Beneﬁts Administration’s                                          $5,400,000
3/29/07         Pension Maintenance Program Administered
                by the Pension Maintenance Centers



OTHER OFFICE OF AUDIT REVIEWS

05-00877-17     Review of VA Medical Facility Compliance
11/1/2006       with Controls over Prescription Drugs
04-03100-90     Review of VA Central Incident Response
02/26/07        Capability Contract Planning, Award, and
                Administration



                                                                                         Appendix    •   25
             Semiannual Report to Congress                             October 1, 2006–March 31, 2007


  Report                                                             Funds Recommended
 Number/                                                                 for Better Use
Issue Date                  Report Title                             OIG        Management    Questioned Costs


ADMINISTRATIVE INVESTIGATIONS

05-02958-28       Administrative Investigation, Improper
11/24/2006        Acceptance of a Gift and Honorarium, and
                  Misuse of Time, VA San Diego Health Care
                  System
06-00797-34       Administrative Investigation, Improper
11/29/2006        Contracting Procedures Acquisition
                  Operations Service, VA Central Ofﬁce,
                  Washington, DC
06-01447-49       Administrative Investigation, Misuse of
12/23/2006        Resources and Position VA Medical Center,
                  Northport, NY
06-03285-73       Patient Financial Services System Contract
01/31/07          Planning, Award, and Administration Review,
                  VA Central Ofﬁce
06-01219-70       Administrative Investigation, Improper
02/1/07           Selection of a Contractor Austin Automation
                  Center Austin, TX
06-02238-84       Administrative Investigation, Contract Award
02/12/07          and Administration Irregularities, Ofﬁces of
                  Information & Technology and Acquisition &
                  Materiel Management VA Central Ofﬁce
06-01135-103      Administrative Investigation, Improper
03/20/07          Recruitment Bonus VA Nebraska-Western
                  Iowa Healthcare System, Omaha, NE
06-00089-107      Administrative Investigation, Improper
3/28/07           Payments to Physicians VA Medical Center,
                  Tampa, FL
06-00518-109      Administrative Investigation, Misuse of
3/29/07           Ofﬁcial Time by Physician, VA Greater Los
                  Angeles Health Care System



JOINT REVIEWS
07-00641-40       Major Management Challenges,
12/6/2006         Fiscal Year 2006


TOTAL:            66 Reports                                     $24,893,757    $24,893,757      $5,400,000




26     •     Appendix
October 1, 2006–March 31, 2007                              VA Ofﬁce of Inspector General


                                                 APPENDIX B


        STATUS OF OIG REPORTS UNIMPLEMENTED FOR OVER 1 YEAR
The Federal Acquisition Streamlining Act of 1994 requires Federal agencies to complete ﬁnal action
on each OIG report recommendation within 12 months after the report is ﬁnalized. OIG is required
to identify unimplemented recommendations in its Semiannual Report to Congress until the ﬁnal
action is completed. This appendix summarizes the status of OIG unimplemented reports and
recommendations. The following chart lists the total number of unimplemented OIG reports and
recommendations by organization. It also provides the total number of unimplemented reports and
recommendations issued over 1 year ago (March 31, 2006, and earlier). One report on the following
chart has actions at 2 ofﬁces.


                       Unimplemented OIG Reports and Recommendations

     VA                                                                 Issued 3/31/06
    Ofﬁce                          Total                                   and Earlier
     ce of Information and Technology (OI&T)
     ce of Management (OM)
                        Reports           Recommendations        Reports          Recommendations

      VHA                69                      368               10                       34

      VBA                2                        6                 0                       0

     OI&T1               3                        24                1                       17

      OM2                2                        10                1                       2




1
    Ofﬁce of Information and Technology (OI&T)
2
    Ofﬁce of Management (OM)




                                                                                   Appendix      •   27
                     Semiannual Report to Congress                                 October 1, 2006–March 31, 2007




                              Reports Unimplemented for Over 1 Year

  Report            Date of                      Title                  Responsible             Open                  Monetary
  Number             Issue                                             Organization(s)     Recommendations             Impact

                                  Audit of VHA’s Part-Time Physician
02-01339-85     4/23/2003                                                   VHA                 3 of 17
                                         Time and Attendance

                                    Healthcare Inspection, VHA’s
03-00391-138     5/3/2004           Community Residential Care              VHA                 1 of 11
                                          (CRC) Program

                                   Issues at VA Medical Center Bay
                                    Pines, Florida and Procurement
04-01371-177    8/11/2004            and Deployment of the Core             VHA                 1 of 67
                                    Financial and Logistics System
                                               (CoreFLS)

                                  Healthcare Inspection, Evaluation
03-00079-183    8/13/2004                                                   VHA                11 of 15              $42,000,000
                                  of Nurse Stafﬁng in VHA Facilities

                                    Evaluation of Selected Medical
03-00940-38     12/1/2004          Care Collections Fund First Party        VHA                  1 of 4
                                       Billings and Collections

                                   Combined Assessment Program
04-01805-55     12/27/2004        Review of the VA Eastern Colorado         VHA                 1 of 40
                                   Healthcare System, Denver CO

                                    Evaluation of VA Compliance
02-00986-101     3/9/2005         with Federal Energy Management            OM                  2 of 12              $12,880,320
                                               Policies

                                     Audit of the Veterans Health
04-02887-169     7/8/2005            Administration’s Outpatient            VHA                  5 of 8
                                       Scheduling Procedures

                                  Healthcare Inspection, Inspection
04-00235-180     8/4/2005         of Veterans Health Administration         VHA                  9 of 9
                                   Patient Transportation Services

                                   Audit of VA Acquisition Practices
04-02330-212    9/30/2005         for the National Vietnam Veterans         VHA                  1 of 3
                                          Longitudinal Study

                                    Audit of Allegations Regarding
                                     Payments for Fee Basis Care
05-03037-107    3/21/2006                                                   VHA                  1 of 1
                                    in Veterans Integrated Service
                                        Network 2, Albany, NY

                                   FY 2005 Audit of VA Information
05-00055-216    9/20/2006                                                   OI&T               17 of 17
                                         Security Program1


  TOTALS                                                                                          53                 $54,880,320


       1
        Although this FY 2005 FISMA audit is not yet over 1 year old, it contains OIG recommendations from earlier
       FISMA audits, which is the basis for including it in this presentation.




           28   •      Appendix
October 1, 2006–March 31, 2007                                VA Ofﬁce of Inspector General




                                        APPENDIX C

          INSPECTOR GENERAL ACT REPORTING REQUIREMENTS
The table below cross-references the speciﬁc pages in this Semiannual Report to the reporting
requirements where they are prescribed by the Inspector General Act of 1978 (Public Law 95-452), as
amended by the Inspector General Act Amendments of 1988 (Public Law 100-504), and the Omnibus
Consolidated Appropriations Act of 1997 (Public Law 104-208).
The Federal Financial Management Improvement Act of 1996 (Public Law 104-208) requires OIG to
report instances and reasons when VA has not met the intermediate target dates established in the
VA remediation plan to bring VA’s ﬁnancial management system into substantial compliance with the
Act. VA reported that it met its milestones through the ﬁrst quarter of FY 2007.


     IG Act                             Reporting
                                                                                      Status
   References                         Requirements

                     Review of legislative, regulatory, and                   Commented on 295
 Section 4 (a) (2)
                     administrative proposals                                 items

 Section 5 (a) (1)   Signiﬁcant problems, abuses, and deﬁciencies             See pages 5–18

                     Recommendations with respect to signiﬁcant
 Section 5 (a) (2)                                                            See pages 5–18
                     problems, abuses, and deﬁciencies
                     Prior signiﬁcant recommendations on which
 Section 5 (a) (3)                                                            See pages 25–26
                     corrective action has not been completed
                     Matters referred to prosecutive authorities and
 Section 5 (a) (4)                                                            See pages 5–18
                     resulting prosecutions and convictions
                     Summary of instances where information was
 Section 5 (a) (5)                                                            None
                     refused
                     List of audit reports by subject matter,
 Section 5 (a) (6)   showing dollar value of questioned costs and             See pages 20–24
                     recommendations that funds be put to better use
 Section 5 (a) (7)   Summary of each particularly signiﬁcant report           See pages 5–18
                     Statistical tables showing number of reports and
 Section 5 (a) (8)   dollar value of questioned costs for unresolved,         See page 28
                     issued, and resolved reports
                     Statistical tables showing number of reports and
                     dollar value of recommendations that funds be put
 Section 5 (a) (9)                                                            See page 28
                     to better use for unresolved, issued, and resolved
                     reports
                     Summary of each audit report issued before
 Section 5 (a)
                     this reporting period for which no management            See page 28
 (10)
                     decision was made by end of reporting period
 Section 5 (a)
                     Signiﬁcant revised management decisions                  None
 (11)
 Section 5 (a)       Signiﬁcant management decisions with which the
                                                                              None
 (12)                Inspector General is in disagreement
                     Information described under section 5(b) of the
 Section 5 (a)
                     Federal Financial Management Improvement Act of          See top of this page
 (13)
                     1996 (Public Law 104-208)




                                                                                     Appendix        •   29
              Semiannual Report to Congress             October 1, 2006–March 31, 2007



Table 1: Resolution Status of Reports with Questioned Costs



                                                                         Dollar Value
                         RESOLUTION STATUS                  Number
                                                                         (In Millions)
 No management decision by 9/30/06                             0                   $0
 Issued during reporting period                                1                $5.4
     Total inventory this period                               1                $5.4
 Management decisions during the reporting period
 Disallowed costs (agreed to by management)                    1                $5.4
 Allowed costs (not agreed to by management)                   0                  $0
     Total management decisions this reporting period          1                $5.4
     Total carried over to next period                         0                  $0




Table 2: Resolution Status of Reports with Recommended Funds To Be
Put To Better Use By Management


                                                                         Dollar Value
                         RESOLUTION STATUS                  Number
                                                                         (In Millions)
 No management decision by 9/30/06                             0                   $0
 Issued during reporting period                                4               $24.9
     Total inventory this period                               4              $24.9
 Management decisions during the reporting period
 Agreed to by management                                       4               $24.9
 Not agreed to by management                                   0                  $0
     Total management decisions this reporting period          4              $24.9
     Total carried over to next period                         0                  $0




30        •     Appendix
Copies of this report are available to the public. Written requests should be sent to:

Ofﬁce of the Inspector General (53A)
Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, DC 20420

The report is also available on our website:
http://www.va.gov/oig/publications/semiann/reports.asp
For further information regarding VA OIG, you may call 202-565-8620.




Cover photo of Medal of Honor ﬂags courtesy Department of Defense
                                                                     VA OIG Semiannual Report to Congress
Help VA’s Secretary ensure the integrity of departmental
operations by reporting suspected criminal activity, waste, or
abuse in VA programs or operations to the Inspector General
Hotline.


                  (CALLER CAN REMAIN ANONYMOUS)




To Telephone:           (800) 488-8244
                        (800) 488-VAIG
To FAX:                 (202) 565-7936

To Send
Correspondence:         Department of Veterans Affairs
                        Inspector General Hotline (53E)
                        P.O. Box 50410
                        Washington, DC 20091-0410

Internet Homepage:      http://www.va.gov/oig/contacts/hotline.asp

E-mail Address:         vaoighotline@va.gov




                                                                     March 31, 2007 - Vol. 57


                     Department of Veterans Affairs
                       Ofﬁce of Inspector General
                     Semiannual Report to Congress

                     October 1, 2006 - March 31, 2007
